IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
DWYNE DERUISE,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Dwyne Deruise, through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 7th day of January, 2021, which is prior to the time the
petition for writ of certiorari is due on January 11, 2021.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
January 7, 2021

By:

s/ Peter Birch
Peter Birch
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401

